LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

March 1, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-891:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

AMERICAN AXLE & MANUFACTURING, INC. V. NEAPCO HOLDINGS
LLC, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Ameranth, Inc.
on March 1, 2021, I caused service to be made pursuant to Rule 29 and the Temporary
Order of April 15, 2020 on the following counsel for the Petitioner and Respondents:
PETITIONER:
James Richard Nuttall
Steptoe & Johnson LLP
227 West Monroe, Suite 4700
Chicago, IL 60606
312-577-1260
jnuttall@steptoe.com

RESPONDENTS:
J. Michael Huget
Honigman LLP
315 East Eisenhower Parkway
Suite 100
Ann Arbor, MI 48108
734-418-4254
mhuget@honigman.com

This service was effected by depositing one copy of the Brief of Amicus Curiae
Ameranth, Inc. in an official “first class mail” receptacle of the United States Post
Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 1st day of March 2021.

